Honorable Fred Thompson
United States Senate
Washington, D.C. 20510-6250

Dear Senator Thompson:

     Section 646 of the Treasury-Postal Appropriations Act
for Fiscal Year 2001 requires the Inspector General of each
department or agency to submit to Congress a report that
discloses any activity relating to the collection of data about
individuals who access any Internet site of the department or
agency. Collection devices may include persistent cookies and
web bugs. Persistent cookies are small software files placed on
computers that can track the movement of a person on an Internet
site over a specified period of time. Web bugs are invisible
graphics included on the web site or in an e-mail designed to
monitor who visits the web site or reads the e-mail. The
President’s Council on Integrity and Efficiency has asked this
office to summarize the reviews conducted by the Inspectors
General.

     In general the reviews focused on:

     •   reviewing the agencies’ use of persistent cookies and web
         bugs to collect information on individuals based on their
         visits to a web site, and determining whether the Head of
         the Agency personally approved the use of the collection
         device,

     •   determining whether the agencies’ web sites used or
         entered into third-party agreements to obtain personnel
         information using collection devices, and

     •   determining whether the agencies’ major web entry points
         have privacy statements posted that adequately reflect
         what, if any, personal information is collected, why it
         is collected, and how that information is used.

     We received reports from 51 Inspectors General. Based on
the results of reviews presented in these reports, we concluded
that compliance with applicable policies has been inadequate.
                                                                  2

The individual Inspector General reports make recommendations
for corrective actions at the department or agency level. A
summary of the results is included in the following table.


                         President’s Council      Executive Council
                           on Integrity and        on Integrity and
                              Efficiency              Efficiency
         Issue               Agencies (27)          Agencies (24)
                                     Not                     Not
                          Yes No Addressed       Yes No Addressed
 Used Persistent          17   10        0        5    18      1
   Cookies
 Used Web Bugs            3    4         20       0    4     20
 Approval to Use          2*   15        10       0    0     24
   Persistent Cookies
 Third-Party              5    14         8       1   15      8
   Agreements
 Compliant Privacy Act    3    20         4      13    7      4
   Statements

     * Two agencies had approved and unapproved cookies.


     Charts that illustrate in greater detail the results of the
reviews for each agency and list the reports are enclosed.

     If you have any questions regarding this matter, please
contact me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                    Sincerely,



                                      (Signed)
                                 Robert J. Lieberman
                               Deputy Inspector General

Enclosures
                             President's Council on Integrity and Efficiency Reports on Section 646


                                                             Persistent            Agency Third-Party
                                                              Cookies     Web Bugs  Head    Commercial Compliant with
                           Agency                              Found       Found   Approval Agreements Privacy Policy
 1   Agency for International Development                       yes         N/A       no        no          yes
 2   Agriculture, Department of                                 yes         N/A       no        N/A          no
 3   Commerce, Department of                                    yes         yes       no        N/A          no
 4   Corporation for National and Community Service              no         N/A      N/A        no          N/A
 5   Defense, Department of                                     yes         yes       no        N/A          no
 6   Education, Department of                                   yes         no        no        no           no
 7   Energy, Department of                                      yes         N/A       no        N/A          no
 8   Environmental Protection Agency                            yes         N/A       no        no           no
 9   Federal Deposit Insurance Corporation                       no         N/A      N/A        no          N/A
10   Federal Emergency Management Agency                        yes         no        no        no           no
11   General Services Administration                            yes         N/A     yes/no      yes          no
12   Health and Human Services, Department of                   yes         N/A     yes/no      N/A          no
13   Housing and Urban Development                               no         N/A      N/A        N/A          no
14   Interior, Department                                       yes         yes       no        yes          no
15   Justice, Department of                                      no         N/A      N/A        no          N/A
16   Labor, Department of                                        no         N/A      N/A        yes          no
17   National Aeronautics and Space Administration              yes         N/A       no        no           no
18   Nuclear Regulatory Commission                               no         N/A      N/A        no          yes
19   Office of Personnel Management                             yes         no        no        no           no
20   Railroad Retirement Board                                   no         N/A      N/A        no           no
21   Small Business Administration                               no         N/A      N/A        no           no
22   Social Security Administration                              no         N/A      N/A        yes          no
23   State, Department of                                       yes         N/A       no        N/A          no
24   Transportation, Department of                              yes         N/A       no       yes          N/A
25   Treasury, Department of the                                yes         N/A       no        no           no
26   Treasury Inspector General for Tax Administration           no         no       N/A        no          yes
27   Veterans Affairs, Department of                            yes         N/A       no        N/A          no




                          Executive Council on Integrity and Efficiency Reports on Section 646


                                                             Persistent            Agency Third-Party
                                                              Cookies     Web Bugs  Head    Commercial Compliant with
                           Agency                              Found       Found   Approval Agreements Privacy Policy
 1   Appalachian Regional Commission                             no         N/A      N/A        no          yes
 2   Commodity Futures Trading Commission                        no         N/A      N/A        no          yes
 3   Consumer Product Safety Commission                          no         N/A      N/A        no           no
 4   Corporation for Public Broadcasting                        yes         N/A      N/A        no           no
 5   Equal Employment Opportunity Commission                    yes         N/A      N/A        N/A         yes
 6   Farm Credit Administration                                  no          no      N/A        no          yes
 7   Federal Communications Commission                           no          no      N/A        no           no
 8   Federal Housing Finance Board                               no          no      N/A        no           no
 9   Federal Labor Relations Authority                           no         N/A      N/A        no          yes
10   Federal Maritime Commission                                 no         N/A      N/A        no          N/A
11   Federal Reserve Board                                       no          no      N/A        no          yes
12   Federal Trade Commission                                    no         N/A      N/A        no          N/A
13   Government Printing Office                                  no         N/A      N/A        N/A         yes
14   National Archives                                           no         N/A      N/A        N/A         yes
15   National Credit Union Administration                        no         N/A      N/A        N/A          no
16   National Endowment for the Arts                             no         N/A      N/A        N/A          no
17   National Endowment for the Humanities                      yes         N/A      N/A        N/A         yes
18   National Labor Relations Board                              no         N/A      N/A        no          yes
19   National Science Foundation                                yes         N/A      N/A        no          yes
20   Pension Benefit Guaranty Corporation                        no         N/A      N/A        no          N/A
21   Securities and Exchange Commission                         yes         N/A      N/A       yes          yes
22   Smithsonian Institution 1                                  N/A         N/A      N/A        N/A         N/A
23   Tennessee Valley Authority                                  no         N/A      N/A        no          yes
24   U.S. International Trade Commission                         no         N/A      N/A        N/A          no


     N/A - Not addressed in report
     1. The Smithsonian Institution reported the collection of personally identifiable information at several of their web sites but
     did not report the use of persistent cookies or web bugs.
                                                                                                                      2

                                         Agencies Which Used Persistent "Cookies"



                                                                                                            Agency
                  President's Council on Integrity and Efficiency    Web      Web      Web     Number of     Head
                                       Agency                       Servers   Sites   Pages     Cookies    Approval
            1    Agency for International Development                 N/A      N/A      N/A         2         no
            2    Agriculture, Department of                           N/A      N/A    10,067       12         no
            3    Commerce, Department of                              N/A      N/A      N/A        12         no
            4    Defense, Department of                               N/A      400      N/A       128         no
            5    Education, Department of                            64        111     4,056        4         no
            6    Energy, Department of                                N/A       93      N/A        11         no
            7    Environmental Protection Agency                      N/A      N/A      N/A         6         no
            8    Federal Emergency Management Agency                  N/A      N/A       126        3         no
            9    General Services Administration                      N/A      N/A       858       15       yes/no
           10    Health and Human Services, Department of             N/A       81      N/A        11       yes/no
           11    Interior, Department                                 N/A      598      N/A        18         no
           12    National Aeronautics and Space Administration        N/A       49       600        3         no
           13    Office of Personnel Management                       N/A      N/A       750        1         no
           14    State, Department of                                 N/A      206      N/A         9         no
           15    Transportation, Department of                        N/A      177     1,270       23         no
           16    Treasury, Department of the                          N/A       30       100        6         no
           17    Veterans Affairs, Department of                      N/A      988      N/A        29         no

                   Total                                              64      2,733   17,827      293




                                                                                                            Agency
                  Executive Council on Integrity and Efficiency      Web      Web      Web     Number of     Head
                                       Agency                       Servers   Sites   Pages     Cookies    Approval
             1   Corporation for Public Broadcasting                  N/A       2      N/A         1          N/A
             2   Equal Employment Opportunity Commission              N/A       1      N/A         1          N/A
             3   National Endowment for the Humanities                N/A       3      N/A         2          N/A
             4   National Science Foundation                          N/A       1      N/A         1          N/A
             5   Securities and Exchange Commission                   N/A       4      N/A         2          N/A

                   Total                                                       11                  7




N/A - Not addressed in report
                                                                                                              3

                                         Agencies Which Used Third-Party Agreements



                                                                                                Number of
                            President's Council on Integrity and     Web      Web      Web     Third-Party
                                      Efficiency Agency             Servers   Sites   Pages    Agreements
                   1   General Services Administration             N/A         N/A     858          1
                   2   Interior, Department of                     N/A         598     N/A          5
                   3   Labor, Department of                        N/A         N/A     143          1
                   4   Social Security Administration              N/A         N/A     N/A          2
                   5   Transportation, Department of               N/A         177    1,270         3

                         Total                                            0   775     1,270        12



                                                                                                Number of
                     Executive Council on Integrity and             Web       Web      Web     Third-Party
                     Efficiency Agency                             Servers    Sites   Pages    Agreements
                   1      Securities and Exchange Commission         N/A        4      N/A          2

                         Total                                                 4                    2



                                        Agencies Which Used Web Bugs


                          President's Council on Integrity and      Web       Web      Web    Number of Web
                                    Efficiency Agency              Servers    Sites   Pages      Bugs
                   1 Commerce, Department of                         N/A       N/A     N/A         23
                   2 Defense, Department of                          N/A       400     N/A          7
                   3 Interior, Department                            N/A       598     N/A         12

                         Total                                        0       998      0           42




N/A - Not addressed in report
                                                                                                                                                        4

                                President's Council on Integrity and Efficiency Reports on Section 646



                                                                                                                                     Agency's Web
                          Agency                                          Title of Report                         Report Number          Site
                                                       Audit of USAID's Compliance with Internet Privacy
 1 Agency for International Development                Policies, (May 14, 2001)                                A-000-01-001-P       www.usaid.gov
                                                       Privacy Considerations Within USDA Agency
 2 Agriculture, Department of                          Internet Sites, (May 4, 2001)                           50099-30-FM          www.usda.gov
                                                       Use of Internet "Cookies" and "Web Bugs" on
                                                       Commerce Web Sites Raises Privacy and Security
 3 Commerce, Department of                             Concerns, (April 2001)                                  OSE-14257            www.doc.gov
 4 Corporation for National and Community Service      Letter only (February 13, 2001)                         none                 www.cns.gov

 5 Defense, Department of                              DoD Internet Practices and Policies, (May 31, 2001)     D-2001-130           www.dodig.osd.mil
                                                       Audit of the Collection of Personally Identifiable
                                                       Information Through ED Internet Sites, (February 20,
 6   Education, Department of                          2001)                                                   ED-OIG/A11-B0002     www.ed.gov
 7   Energy, Department of                             Internet Privacy, (February 2001)                       DOE/IG-0493          www.id.doe.gov
 8   Environmental Protection Agency                   Letter only                                             none                 www.epa.gov
 9   Federal Deposit Insurance Corporation             Letter only, (February 12, 2001)                        none                 www.fdic.gov
                                                       Audit of FEMA's Collection of Personal Information
10 Federal Emergency Management Agency                 About Internet Web Site Visitors, ( May 2001)           H-08-01              www.fema.gov
                                                       Review of GSA's Activities Related to Cookies,
11 General Services Administration                     (February 22, 2001)                                     A010107/0/T/F01008   www.gsa.gov
                                                       Monitoring of Personally Identifiable Information on
12 Health and Human Services, Department of            Users of Departmental Internet Sites, ( April 2001)     A-01-01-03000        www.dhhs.gov
13 Housing and Urban Development                       Memorandum, (February 21, 2001)                         none                 www.hud.gov

                                                       Department of Interior Activities to Collect, Review,
                                                       and Use Information That Identifies Individuals Who
14 Interior, Department                                Access the Department's Internet Sites, (April 2001)    01-I-340             www.doi.gov
                                                       Review of Department of Justice Internet Sites,
15 Justice, Department of                              (February 2001)                                         01-05                www.usdoj.gov
                                                       OIG Results on Privacy Policies and Data
16 Labor, Department of                                Collections on DOL Web Sites,                           17-01-002-01-010     www.dol.gov
                                                       Review of the Collection of Personally Identifiable
                                                       Information on NASA's Web Sites, (February 16,
17 National Aeronautics and Space Administration       2001)                                                   IG-01-008            www.nasa.gov
                                                       Review of NRC's Web Site Privacy Policy: Internet
18 Nuclear Regulatory Commission                       Cookies, (February 16, 2001)                            OIG-01-A-08          www.nrc.gov
19 Office of Personnel Management                      OPM Internet Privacy Review, (May 9, 2001)              4A-CI-00-01-038      www.opm.gov
                                                       RRB-OIG Report on Collection of Internet User
                                                       Information Pursuant to the FY 2001 Consolidated
20 Railroad Retirement Board                           Appropriations Bill, H.R. 4577                          none                 www.rrb.gov
21 Small Business Administration                       Letter, (February 20, 2001)                             none                 www.sba.gov
                                                       The Social Security Administration's Internet Data
22 Social Security Administration                      Collection Activities, (February 14, 2001)              31045-23-126         www.ssa.gov
                                                       Department Wide Web Site Management Needs to
23 State, Department of                                be Strengthened, (March 2001)                           01-IT-M-017          www.state.gov
24 Transportation, Department of                       Report on Web Privacy, (February 26, 2001)              FI-2001-034          www.dot.gov

                                                       Information Technology: Treasury Web Sites
                                                       Substantially Comply With OMB Privacy Policies and
25 Treasury, Department of the                         Data Collection Standards, (February 17, 2001)       OIG-01-044              www.ustreas.gov
                                                       The Internal Revenue Service Complied with Federal
                                                       Privacy Policies Regarding the Collection of
                                                       Personal Information on Federal Web Sites, April 18,
26 Treasury Inspector General for Tax Administration   2001                                                 none                    www.treas.gov
                                                       Review of Department of Veterans Affairs Activities
                                                       to Collect, Review, and Use Information That
                                                       Identifies Individuals Who Access the Department's
27 Veterans Affairs, Department of                     Internet Sites, (May 21, 2001)                       00-02797-78             www.va.gov
                                                                                                                                             5

                               Executive Council on Integrity and Efficiency Reports on Section 646




                                                                                                                              Agency's Web
                      Agency                                           Title of Report                       Report Number         Site
 1 Appalachian Regional Commission                 E-mail, (May 14, 2001)                                 none               www.arc.gov
 2 Commodity Futures Trading Commission            Letter, February 13, 2001)                             none               www.cftc.gov
                                                   Review of CPSC's Web Site Privacy Policy May 15,
 3 Consumer Product Safety Commission              2001                                                   none               www.cpsc.gov
 4 Corporation for Public Broadcasting             Letter-February 9, 2001                                none               www.cpb.org
                                                   Letter-FY2001 Consolidated Appropriations Act
                                                   Language Concerning an Agency's Practice of
 5 Equal Employment Opportunity Commission         Obtaining Personally Identifiable Information          none               www.eeoc.gov
 6 Farm Credit Administration                      Letter-March 1, 2001                                   none               www.fca.gov
                                                   Special Review of Internet Privacy and Web
 7 Federal Communications Commission               Cookies April 10, 2001                                 01-AUD-05-12       www.fcc.gov
                                                   Review of the Finance Board's Web Site Privacy
                                                   Policy And Its Use Of Web Site Cookies and Bugs
 8   Federal Housing Finance Board                 May 2001                                               01-A-03-ORM        www.fhfb.gov
 9   Federal Labor Relations Authority             Letter-January 24, 2001                                none               www.flra.gov
10   Federal Maritime Commission                   Letter-March 1, 2001                                   none               www.fmc.gov
11   Federal Reserve Board                         Letter-February 20, 2001                               none               www.frb.gov
12   Federal Trade Commission                      Letter-April 20, 2001                                  none               www.ftc.gov
13   Government Printing Office                    Letter-February 20, 2001                               none               www.gpo.gov
                                                   Letter-Public Law 106-554, Section 646 - Collection
                                                   of Personally Identifiable Information by Fedral
                                                   Internet Web Sites a.ka. Cookie Legislation,
14 National Archives and Records Administration    February 16, 2001                                      none               www.nara.gov
                                                   NCUA Website Privacy and "Cookies" Review, May
15 National Credit Union Administration            31, 2001                                               OIG-01-06          www.ncua.gov
                                                   Review of NEA's Web Site Privacy and Cookies
16 National Endowment for the Arts                 Policy, April 19, 2001                                 R-01-02            www.nea.gov
17 National Endowment for the Humanities           Letter-April 11, 2001                                  none               www.neh.gov
18 National Labor Relations Board                  Letter-January 29, 2001                                none               www.nlrb.gov
                                                   National Science Foundation (NSF) Data Collection
19 National Science Foundation                     on Web Site Visitors                                   none               www.nsf.gov
                                                   Letter-Agency Collection of Certain Infromation from
20 Pension Benefit Guaranty Corporation            Individuals February 13, 2001                          none               www.pbgc.gov
                                                   Letter- Report on Collection of Personally
21 Securities and Exchange Commission              Identifiable Information, February 16, 2001            none               www.sec.gov
                                                   Letter-Personally Identifiable Information Collected
22 Smithsonian Institution                         by Smithsonian Websites                                none               www.si.gov
                                                   TVA's Compliance with Public Law 106-554-The
                                                   Treasury and General Government Appropriations
23 Tennessee Valley Authority                      Act, 2001, February 15, 2001                           2001-909T          www.tva.gov
                                                   Information Collection on USITC Internet Servers,
24 U.S. International Trade Commission             February 16, 2001                                      OIG-IR-02-01       www.usitc.gov
                                          June 14, 2001


Honorable Byron L. Dorgan
Chairman, Subcommittee on Treasury
  and General Government
Committee on Appropriations
United States Senate
Washington, D.C. 20510-6025

Dear Mr. Chairman:

     Section 646 of the Treasury-Postal Appropriations Act
for Fiscal Year 2001 requires the Inspector General of each
department or agency to submit to Congress a report that
discloses any activity relating to the collection of data about
individuals who access any Internet site of the department or
agency. Collection devices may include persistent cookies and
web bugs. Persistent cookies are small software files placed on
computers that can track the movement of a person on an Internet
site over a specified period of time. Web bugs are invisible
graphics included on the web site or in an e-mail designed to
monitor who visits the web site or reads the e-mail. The
President’s Council on Integrity and Efficiency has asked this
office to summarize the reviews conducted by the Inspectors
General.

     In general the reviews focused on:

     •   reviewing the agencies’ use of persistent cookies and web
         bugs to collect information on individuals based on their
         visits to a web site, and determining whether the Head of
         the Agency personally approved the use of the collection
         device,

     •   determining whether the agencies’ web sites used or
         entered into third-party agreements to obtain personnel
         information using collection devices, and

     •   determining whether the agencies’ major web entry points
         have privacy statements posted that adequately reflect
         what, if any, personal information is collected, why it
         is collected, and how that information is used.

     We received reports from 51 Inspectors General. Based on
the results of reviews presented in these reports, we concluded
that compliance with applicable policies has been inadequate.
                                                                   2

The individual Inspector General reports make recommendations
for corrective actions at the department or agency level. A
summary of the results is included in the following table.


                         President’s Council       Executive Council
                           on Integrity and         on Integrity and
                              Efficiency               Efficiency
          Issue              Agencies (27)           Agencies (24)
                                     Not                      Not
                          Yes No Addressed        Yes No Addressed
 Used Persistent          17   10        0         5    18      1
   Cookies
 Used Web Bugs            3     4         20       0    4     20
 Approval to Use           2*   15        10       0    0     24
   Persistent Cookies
 Third-Party              5     14         8       1   15      8
   Agreements
 Compliant Privacy Act    3     20         4      13    7      4
   Statements

      * Two agencies had approved and unapproved cookies.


     Charts that illustrate in greater detail the results of the
reviews for each agency and list the reports are enclosed.

     If you have any questions regarding this matter, please
contact me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                     Sincerely,

                                     (Signed)


                                  Robert J. Lieberman
                                Deputy Inspector General

Enclosures

cc:   Honorable Ben Nighthorse Campbell
      Ranking Minority Member
                                          June 14, 2001


Honorable Joseph I Lieberman
Chairman
Committee on Governmental Affairs
United States Senate
Washington, D.C. 20510-6250


Dear Mr. Chairman:

     Section 646 of the Treasury-Postal Appropriations Act
for Fiscal Year 2001 requires the Inspector General of each
department or agency to submit to Congress a report that
discloses any activity relating to the collection of data about
individuals who access any Internet site of the department or
agency. Collection devices may include persistent cookies and
web bugs. Persistent cookies are small software files placed on
computers that can track the movement of a person on an Internet
site over a specified period of time. Web bugs are invisible
graphics included on the web site or in an e-mail designed to
monitor who visits the web site or reads the e-mail. The
President’s Council on Integrity and Efficiency has asked this
office to summarize the reviews conducted by the Inspectors
General.

     In general the reviews focused on:

     •   reviewing the agencies’ use of persistent cookies and web
         bugs to collect information on individuals based on their
         visits to a web site, and determining whether the Head of
         the Agency personally approved the use of the collection
         device,

     •   determining whether the agencies’ web sites used or
         entered into third-party agreements to obtain personnel
         information using collection devices, and

     •   determining whether the agencies’ major web entry points
         have privacy statements posted that adequately reflect
         what, if any, personal information is collected, why it
         is collected, and how that information is used.

     We received reports from 51 Inspectors General. Based on
the results of reviews presented in these reports, we concluded
that compliance with applicable policies has been inadequate.
                                                                   2

The individual Inspector General reports make recommendations
for corrective actions at the department or agency level. A
summary of the results is included in the following table.


                         President’s Council       Executive Council
                           on Integrity and         on Integrity and
                              Efficiency               Efficiency
          Issue              Agencies (27)           Agencies (24)
                                     Not                      Not
                          Yes No Addressed        Yes No Addressed
 Used Persistent          17   10        0         5    18
   Cookies
 Used Web Bugs            3     4         20       0    4     20
 Approval to Use           2*   15        10       0    0     24
   Persistent Cookies
 Third-Party              5     14         8       1   15      8
   Agreements
 Compliant Privacy Act    3     20         4      13    7      4
   Statements

      * Two agencies had approved and unapproved cookies.


     Charts that illustrate in greater detail the results of the
reviews for each agency and list the reports are enclosed.

     If you have any questions regarding this matter, please
contact me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                     Sincerely,


                                      (Signed)

                                  Robert J. Lieberman
                                Deputy Inspector General

Enclosures

cc:   Honorable Fred Thompson
      Ranking Minority Member
                                          June 14, 2001


Honorable Ernest J. Istook, Jr.
Chairman, Subcommittee on Treasury,
  Postal Service and General Government
Committee on Appropriations
House of Representatives
Washington, D.C. 20515-6028

Dear Mr. Chairman:

     Section 646 of the Treasury-Postal Appropriations Act
for Fiscal Year 2001 requires the Inspector General of each
department or agency to submit to Congress a report that
discloses any activity relating to the collection of data about
individuals who access any Internet site of the department or
agency. Collection devices may include persistent cookies and
web bugs. Persistent cookies are small software files placed on
computers that can track the movement of a person on an Internet
site over a specified period of time. Web bugs are invisible
graphics included on the web site or in an e-mail designed to
monitor who visits the web site or reads the e-mail. The
President’s Council on Integrity and Efficiency has asked this
office to summarize the reviews conducted by the Inspectors
General.

     In general the reviews focused on:

     •   reviewing the agencies’ use of persistent cookies and web
         bugs to collect information on individuals based on their
         visits to a web site, and determining whether the Head of
         the Agency personally approved the use of the collection
         device,
     •   determining whether the agencies’ web sites used or
         entered into third-party agreements to obtain personnel
         information using collection devices, and

     •   determining whether the agencies’ major web entry points
         have privacy statements posted that adequately reflect
         what, if any, personal information is collected, why it
         is collected, and how that information is used.

     We received reports from 51 Inspectors General. Based on
the results of reviews presented in these reports, we concluded
that compliance with applicable policies has been inadequate.
                                                                    2

The individual Inspector General reports make recommendations
for corrective actions at the department or agency level. A
summary of the results is included in the following table.


                         President’s Council        Executive Council
                           on Integrity and          on Integrity and
                              Efficiency                Efficiency
          Issue              Agencies (27)            Agencies (24)
                                     Not                       Not
                          Yes No Addressed         Yes No Addressed
 Used Persistent          17   10        0          5    18      1
   Cookies
 Used Web Bugs            3      4         20       0    4     20
 Approval to Use           2*    15        10       0    0     24
   Persistent Cookies
 Third-Party              5      14         8       1   15      8
   Agreements
 Compliant Privacy Act    3      20         4      13    7      4
   Statements

      * Two agencies had approved and unapproved cookies.


     Charts that illustrate in greater detail the results of the
reviews for each agency and list the reports are enclosed.

     If you have any questions regarding this matter, please
contact me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                      Sincerely,

                                       (Signed)


                                   Robert J. Lieberman
                                 Deputy Inspector General

Enclosures

cc:   Honorable Steny H. Hoyer
      Ranking Minority Member
                                          June 14, 2001


Honorable Jay Inslee
House of Representatives
Washington, D.C. 20515-4701

Dear Congressman Inslee:

     Section 646 of the Treasury-Postal Appropriations Act
for Fiscal Year 2001 requires the Inspector General of each
department or agency to submit to Congress a report that
discloses any activity relating to the collection of data about
individuals who access any Internet site of the department or
agency. Collection devices may include persistent cookies and
web bugs. Persistent cookies are small software files placed on
computers that can track the movement of a person on an Internet
site over a specified period of time. Web bugs are invisible
graphics included on the web site or in an e-mail designed to
monitor who visits the web site or reads the e-mail. The
President’s Council on Integrity and Efficiency has asked this
office to summarize the reviews conducted by the Inspectors
General.

     In general the reviews focused on:

     •   reviewing the agencies’ use of persistent cookies and web
         bugs to collect information on individuals based on their
         visits to a web site, and determining whether the Head of
         the Agency personally approved the use of the collection
         device,

     •   determining whether the agencies’ web sites used or
         entered into third-party agreements to obtain personnel
         information using collection devices, and

     •   determining whether the agencies’ major web entry points
         have privacy statements posted that adequately reflect
         what, if any, personal information is collected, why it
         is collected, and how that information is used.

     We received reports from 51 Inspectors General. Based on
the results of reviews presented in these reports, we concluded
that compliance with applicable policies has been inadequate.
                                                                  2

The individual Inspector General reports make recommendations
for corrective actions at the department or agency level. A
summary of the results is included in the following table.


                         President’s Council      Executive Council
                           on Integrity and        on Integrity and
                              Efficiency              Efficiency
         Issue               Agencies (27)          Agencies (24)
                                     Not                     Not
                          Yes No Addressed       Yes No Addressed
 Used Persistent          17   10        0        5    18      1
   Cookies
 Used Web Bugs            3    4         20       0    4     20
 Approval to Use          2*   15        10       0    0     24
   Persistent Cookies
 Third-Party              5    14         8       1   15      8
   Agreements
 Compliant Privacy Act    3    20         4      13    7      4
   Statements

     * Two agencies had approved and unapproved cookies.


     Charts that illustrate in greater detail the results of the
reviews for each agency and list the reports are enclosed.

     If you have any questions regarding this matter, please
contact me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                    Sincerely,


                                    (Signed)

                                 Robert J. Lieberman
                               Deputy Inspector General

Enclosures
                                          June 14, 2001


Mr. Joseph Kull
Deputy Controller
Office of Management and Budget
Washington, D.C. 20503

Dear Mr. Kull:

     Section 646 of the Treasury-Postal Appropriations Act
for Fiscal Year 2001 requires the Inspector General of each
department or agency to submit to Congress a report that
discloses any activity relating to the collection of data about
individuals who access any Internet site of the department or
agency. Collection devices may include persistent cookies and
web bugs. Persistent cookies are small software files placed on
computers that can track the movement of a person on an Internet
site over a specified period of time. Web bugs are invisible
graphics included on the web site or in an e-mail designed to
monitor who visits the web site or reads the e-mail. The
President’s Council on Integrity and Efficiency has asked this
office to summarize the reviews conducted by the Inspectors
General.

     In general the reviews focused on:

     •   reviewing the agencies’ use of persistent cookies and web
         bugs to collect information on individuals based on their
         visits to a web site, and determining whether the Head of
         the Agency personally approved the use of the collection
         device,

     •   determining whether the agencies’ web sites used or
         entered into third-party agreements to obtain personnel
         information using collection devices, and

     •   determining whether the agencies’ major web entry points
         have privacy statements posted that adequately reflect
         what, if any, personal information is collected, why it
         is collected, and how that information is used.

     We received reports from 51 Inspectors General. Based on
the results of reviews presented in these reports, we concluded
that compliance with applicable policies has been inadequate.
                                                                   2

The individual Inspector General reports make recommendations
for corrective actions at the department or agency level. A
summary of the results is included in the following table.


                         President’s Council       Executive Council
                           on Integrity and         on Integrity and
                              Efficiency               Efficiency
          Issue              Agencies (27)           Agencies (24)
                                     Not                      Not
                          Yes No Addressed        Yes No Addressed
 Used Persistent          17   10        0         5    18      1
   Cookies
 Used Web Bugs            3     4         20       0    4     20
 Approval to Use           2*   15        10       0    0     24
   Persistent Cookies
 Third-Party              5     14         8       1   15      8
   Agreements
 Compliant Privacy Act    3     20         4      13    7      4
   Statements

      * Two agencies had approved and unapproved cookies.


     Charts that illustrate in greater detail the results of the
reviews for each agency and list the reports are enclosed.

     If you have any questions regarding this matter, please
contact me or Mr. John R. Crane, Director, Office of Congressional
Liaison, at (703) 604-8324.

                                     Sincerely,


                                      (Signed)

                                  Robert J. Lieberman
                                Deputy Inspector General

Enclosures

cc:   Mr. Gaston Gianni, Vice Chair, PCIE
      Mr. Barry R. Snyder, Vice Chair, ECIE
